No.

%

m

IN THE
SUPREME COURT OF THE UNITED STATES

Woodrow Andrew Clark

— PETITIONER

(Your Name)
vs.

FILED
APR 1 2 2021
OFFICE OF THE CLERK

United States of America — RESPONDENT^ PREME COURT, U.S.
ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Eleventh Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Woodrow Andrew Clark
(Your Name) Reg. No. 66836-019
FCI Williamsburg Medium
P.0. Box 340
(Address)
Salters. South Carolina 29590
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
Whether reasonable jurists would find the District Court’s
assessment of Claims one and two debatable or wrong?

Or that

the .issues presented are adequate to deserve encouragement to
proceed further?

ii

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

i

iii

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-10

REASONS FOR GRANTING THE WRIT

11-19

CONCLUSION

20

INDEX TO APPENDICES
APPENDIX A

Decision of United States Court of Appeals

APPENDIX B

Decision of United States District Court
Appendice B-l to B-9

APPENDIX C

Order Denying Petition for Rehearing
Appendice C-l

APPENDIX D

Extension of Time to file Petition for a
Rehearing and Rehearing En Banc

APPENDIX E
APPENDIX F

iv

TABLE OF AUTHORITIES CITED
CASES
Carpenter v. United States, 138 S.Ct. 2206 (2018)

PAGE NUMBER

Miller-El v. Cockrell, 537 U.S. 322 (2003) ..........

19

Tennard v. Dretke, 542 U.S. 274 (2004) ..................

18

Slack v. McDaniel, 529 U.S. 473 (2000) ..................

11,18

9

United States v. Blackburn, 398 F.App'x 453 (11th Cir. 2010) .. 12,13
United States v. Chastain, 198 F.3d 1338 (11th Cir. 1999) ........

12

United States v. Clark, 710 F.App'x 418 (11th Cir. 2017) ..........

8

United States v. Dulcio, 441 F.3d 1269 (11th Cir. 2006) ............

15

United States v. Gutierriz-Farias, 294 F.3d 657 (5th Cir. 2002) 13
United States v. Marshall, 173 F.3d 1372 (11th Cir. 1999) ........

17

United States v. Sumlin, 489 F.3d 683 (5th Cir. 2007) ................

16

STATUTES AND RULES
21 U.S.C. §841 & 846
28 U.S.C. §2253(c)
28 U.S.C. §2255
Fed. R. Evid. 701, 702
Fed. R. Evid. 704(b)
Fed. R. Crim. P. 16

OTHER

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x\ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[x| reported at 2020 U.S. App. LEXIS 24273
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

A

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION
IX] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: November 12, 2020 , and a copy of the
order denying rehearing appears at Appendix _C
[ ] An extension of time to file the petition for a writ of certiorari was3 granted
to and including August 27, 2020 (date) on October 27, 202(^date)
in Application No.__ App. D The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment right to counsel is the right to the
effective assistance of counsel.

A defendant who claims to have

been denied effective assistance must show both that counsel
performed deficiently and that counsel's deficient performance
caused him prejudice.
A claim can be debatable even though every jurist of reason
might agree, after the certificate of appealability (COA) has been
granted and the case has received full consideration, that petitioner
will not previal.

28 U.S.C. §2253 * sets'forth a two-step process:

an initial determination whether a claim is reasonably debatable,
and them, if it is, an appeal in the normal course.

3

STATEMENT OF THE CASE
On March 24, 2015, a federal grand jury sitting in the
Northern District of Georgia returned a two-count indictment
against Woodrow Andrew Clark and his condefendant, Robert Elie,
charging them with: (1) conspiring to possess heroin with the
intent to distribute, in violation of 21 U.S.C. §§841 and 846(Count one); and (2) possessing heroin with the intent to distribute,
in violation of 21 U.S.C. §841 (Count two).
January 19, 2016.

Elie pleaded guilty on

Clark proceeded to a jury trial on June 27, 2016.

At trial, the government presented testimony and evidence
establishing that federal law enforcement received information from
a confidential source that a drug transaction was going to occur
on March 9, 2015, at unit number 9101 in an apartment complex in
DeKalb County, Georgia. Based on that information, eight law
enforcement officers set up surveillance at the apartment complex
where they believed a supplier would bring heroin that a male would
later purchase.
Agents positioned themselves at various locations throughout
the area. At approximately 1:00PM, agents saw an orange truck at
the complex, near unit 9101. The truck left, but later that day,
at around 4:40PM, it returned.

Elie was driving the truck, and

Clark was sitting in the passenger seat. Elie drove the truck past
empty parking spaces in front of 9101 and into the parking deck,
where he parked, facing the truck outwards so that it was looking
in the direction of unit 9101.

Agents watched as Elie get out of

the car, and walked around the truck to the passenger side,

Once

there, Clark handed Elie a red bag. Elie took the bag, walked out
4

of the parking deck and into the 9000 building breezeway, towards
unit number 9101.
After Elie walked into the breezeway, Clark stayed in the car
for approximately five minutes before driving out of the apartment
complex.

About ten minutes later, Clark returned.

Once parked,

Clark remained in the driver's seat and looked around,

He stayed

there for approximately ten minutes, only to leave again.
Approximately 15 minutes later, Clark returned to the apartment
complex.

Elie got in the car, and agents followed as Clark drove

the truck out of the apartment complex.

After Clark left the

apartment complex, a Georgia State Patrol Officer got behind
Clark, and subsequently initiated a traffic stop,

When the officer

did so, Clark slowly pulled over into the left emergency lane, but
never came to a stop; instead, he began accelerating and attempted
to flee, and in doing so, struck an undercover officer's car,
spinning his own vehicle and hitting another law enforcement car.
After hitting the police cars

Clark jumped out of the driver's

side door, and Elie jumped out of the passenger's side door, and
both began running on the.interstate, going in different directions.
The Patrol Officer caught up to Clark.
After Clark and Elie were arrested, agents searched the truck
and found the red bag, $24,793 in cash, two kilograms of heroin
(worth approximately $104,000 to $108,000), and three cell phones.
Agents obtained search warrants for the three phones found in the
car (consisting of an LG, a Nokia, and an Apple iPhone, as well as
I

An Apple iPhone found on Elie when he was arrested.

Agents were

unable to search the two Apple iPhones, however, given the phones'
security features.

The Nokia phone was to damaged to search.
5

Agents, however, were able to recover information from the LG
phone.

Among the information recovered was a text in which

Clark's girlfriend asked him to send her a picture, Clark
responded, "...I'm working now...."

Id.

Clark sent that text

at 5:48PM, during the time that agents were conducting their
surveillance.

The government also presented evidence showing

that Clark had previously been convicted of selling heroin on two
separate occasions in Florida in 2013.
Special Agent Charles Engle was one of the agents conducting
surveillance at the apartment complex on March 9, 2015.

Agent

Engle testified at trial about what he observed during surveillance.
Near the beginning of his testimony, the government asked, "Are you
familiar with countersurveillance?"

Id.

Agent Engle responded .

that he was, the government followed up by asking, "And what is
that?"

Id.

Defense counsel objected

asserting that the government

had not provided expert notice under Federal Rule of Criminal
Procedure 16

and that "testimony based on experience is what

expert testimony is."

Id.

The court tabled the’ issue so that it

could research the law before ruling.
After researching the law, the court sustained Clark's
objection to the government's question about countersurveillance.
After sustaining Clark's objection to the government's request for
Agent Engle to explain countersurveillance, the court permitted
testimony from Agent Engle about what he personally observed and
conclusions he drew from those observations.

After Agent Engle

explained that Clark had driven out of the complex, only to return
a short while later, park, and look around, the government asked,
"Based on your observations, Agent Engle, what did you th.ink was
6

happening^at the time?"

Agent Engle testified:

Because [Clark] had parked, had passed up
open parking spaces, had parked in line of
sight similar to where we had parked and
had a view of the apartment, I believed he
was conducting countersurveillance or acting
as a lookout... I also observed him looking
around. I could see his head moving as
though he was looking around the apartment
complex.
Id.
The government responded by asking, "How did that affect your
level of suspicion about the orange truck at that time?"

Id. Agent

Engle explained:
I believed that the orange turck had delivered
money to the apartment and was going to obtain
heroin from the apartment. I believed that
the driver was posing as a lookout, because
I saw him looking around the complex, and
also where he parked. I believed that he
was involved. So my level of suspicion was
heightened.
Agent Engle also observed Clark driving the truck slowly
through the apartment complex as he and Elie were leaving, and,
based on that observation, Agent Engle testified "I believe the
vehicle was traveling slowly to see if anyone - the driver was
driving the vehicle slowly to see if anyone was following."

Id.

After hearing evidence, the jury found Clark guilty on count
one, the conspiracy charge, and not guilty on count two.

On

September 12, 2016, the court sentenced Clark to 156 months'
imprisonment, to be followed by five years' supervised release,
and ordered him to pay a $100 special assessment and $22,822 in
restitution.
7

On September 23, 2016, Clark initiated an appeal to the
Eleventh Circuit.

The single issue raised on .appeal was whether

the court abused its discretion in admitting the opinion of Agent
Engle that Clark was engaged in countersurveillance. Specifically,
Clark argued that the court erred by permitting Agent Engle to
testify as a lay witness that, based on Clark's behavior, the
agent believed Clark was acting as a lookout during the drug
transaction.

United States v. Clark, 710 F.App'x 418, 421 (11th

Cir. 2017), cert, denied, 138 S.Ct. 2663 (2018).

Because Agent

Engle's testimony was based in part on his experience as a law
enforcement officer, Clark argued Agent Engle's statements were
expert testimony and required notice.

Id.

In affirming Clark's conviction, the Eleventh Circuit stated
that, "[cjoritrary to Clark's argument on appeal, we have recognized
that a law enforcement officer may testify based on knowledge
gained from his experience in a particular field, and that
testimony does not necessarily qualify as 'specialized knowledge'
within the meaning of Rule 702."

Id.

On August 31, 2018, Clark filed a timely petition for relief
pursuant to 28 U.S.C. §225;5.

Clark advances four grounds for
A

relief.

First, Clarked argued that his counsel was ineffective

for failing to file a motion in limine with respect to Agent
Engle's testimony regarding countervurseillance.

Second, Clark

argued that his counsel was ineffective, for failing to request
special jury instructions regarding expert and lay testimony.
Third, Clark argued that his counsel was ineffective for failing
to challenge evidence of his prior convictions.

Fourth, Clark

argued that his cell phone records were inadmissible pursuant to
8

Carpenter v. United States, 138 S.Ct. 2206 (2018).
On November 18, 2019, the U.S. Magistrate Judge issued a
report and recommendation recommending that grounds one, two, and
three be denied because Clark's counsel did not perform deficient
and he was not prejudiced.

The magistrate recommended because

Carpenter did not apply to the present case, Clark should be denied
§2255 relief as to ground four.
On December 2, 2019, Clark filed objections to Magistrate
Judge's final report and recommendation.
On January 22, 2018, the district court issued an order
adopting magistrate judge's report and recommendation.
On January 31, 2020, Clark filed a motion to reconsider and
objections to denial order.
On March 9, 2020, the district court entered an order denying
Clark's reconsideration of denial for certificate of appealability.
On March 13, 2020, Clark filed a motion to object and correct
sentence after denial of 2255 pursuant to Rule 35(a).
On March 20, 2020, the district court entered an order
denying motion to object and correct sentence after denial of
2255 pursuant to Rule 35(a).
On July 31, 2020, the Eleventh Circuit Court of Appeals sent
letter stating I had no merits for a COA given 14 days to file a
response.
On August 3, 2020, mailed a motion for extension of time to
respond to the court's July 31

2020 letter stating I had no merits

for a COA.

9

On August 27, 2020, I received an order granting an extension
for 60 days to file any arguments to the court's July 31, 2020
letter informing I had no merits for a COA.
On October 19, 2020 9 filed motion in response to court's order
denying GOA by request for rehearing with suggestion for rehearing
en banc.
On November 12, 2020, the Eleventh Circuit Court of Appeals
inadvertedly mailed the denial to motion in response to court
order denying . certificate of appealability by request for rehearing
with suggestion for rehearing en ban to the wrong mailing address.
On December 15, 2020, I received the Eleventh Circuit denial
dated December 3, 2020 denying certificate of appealability by
request for rehearing with suggestion for rehearing bn banc.

10

REASONS FOR GRANTING THE PETITION
Mr. Clark will show the denial of his Sixth Amdfidment right
undefi the United States Constitution was violated when trial
counsel failed to (1) file motion in limine with respect to Agent
Engle's testimony; Mnd (2) did not request jury instructions on
Reasonable jurists would find the district

expert testimony.

court's assessment of the constitutional claims debatable or wrong.
And the issues presented are adequate to deserve encouragement to
proceed further.
The Sixth Amendment right to counsel is the right to the
effective assistance of counsel.

A defendant who claims to have

been denied effective assistance must show both that counsel
performed deficiently and that counsel's deficient performance
caused him prejudice.
Mr. Clark moves this Court for a certificate of appealability
("COA"), to appeal the district court's order denying his 28 U.S.C.
§2255 petition.

To obtain a COA, a petitioner must make "a

substantial showing of the denial of a constitutional right."
28 U.S.C. §2253(c).

He must demonstrate that "reasonable jurists

would find the district court's assessment detable or wrong."
Slack v. McDaniel, 529 U.S. 473, 484, 120 S.Ct. 1595, 146 L.Ed.2d
542 (2000).
Mr. Clark advances two grounds for relief.
First, Clark argues that his counsel was ineffective for
failing to file a motion in limine with respect to Agent Engle's
testimony regarding countersurveillance.
11

Second, Clark argues that his counsel was ineffective for
failing to request special jury instructions regarding expert and
lay testimony.
Agent Engle's testimony at trial confirmed he was an "expert
witness."

Agent Engle testified that he was a special agent with

U.S. Dept, of Homeland Security - assigned to the organized crime
and drug task force and task with investigating criminal organizations
as they smuggle narcotics into Atlanta.,

And for six years he was

assigned to the DEA as a DEA Task Force Officer in Atlanta.

Under

Rule 702, "experienced government agents may provide testimony
regarding general techniques used in the drug trafficking business."
United States v. Blackburn, 398 Fed. Appx. 453, 456 (11th Cir. 2010)
(citing United States v. Chastain, 198 F.3d 1338, 1348-49 (11th
Cir. 1999).
The prosecution's proffer of Agent Engle as a lay witness was
error.

This error affected the defense ability to present a defense,

the defense strategy was determined by the prosecution's interference
in its failure to disclose.
trial was violated.

Clark's substantial rights to a fair

The prosecutioti proffered Agent Engle as a

lay witness to evade the reliability requirement under Federal
Rule of Evidence 702.
The government asserted "Clark's counsel was not ineffective
for failing to file motions in limine with respect to Agent Engle's
testimony.

To support its contention the government argued ”[a]s

a practical matter, Clark's counsel did not know the detailed
specifics of Agent Engle's testimony before Agent Engle took the
witness stand.

The government did not disclose the'opinion testimony

of Agent Engle prior to trial because it was not intended as expert
12

testimony."

Id.

The Federal Rules of Evidence set forth the circumstances in
which a district court may permit expert testimony on a matter in
dispute at trial.

An expert witness may testify at trial if his

'scientific, technical, or other specialized knowledge will assist
the trier of fact to understand the evidence or to determine a fact
in issue."

United States v. Gutierrez-Farias, 294 F.3d 657, 662

(5th Cir. 2002)(Quoting Fed. R. Evid. 702).
II I

An expert may testify

in the form of an opinion or otherwise, if (1) the testimony is

based upon sufficient facts or data, (2) the testimony is the
product of reliable principles and Methods, and (3) the witness
has applied the principles and Methods reliably to the facts of the
case."

Id.

"[A]n expert in a criminal case may not offer 'an

opiniofi or inference as to whether the defendant did or did not
have the mental state or condition constituting an element of the
crime charged t II Gutierrez-Farias, 294 F.3d at 662 (quoting Fed. R.
Evid. 704(b)).

"Such issues are matters for the trier of fact alone."

Id.
In Clark's case, the record shows that the district court
relied on United States v. Blackburn, 398 F.App'x 453 to agree with
the government that if Agent Engle's testimony is "based on his,
what he was thinking at the time based on what he saw at that time."
Trial Tr. at 110-111.

The district court then agreed "exactly." Id.

The government then asked the district court for permission to "go
back" on Agent Engle's testimony.
On direct examination the government questioned Agent Engle
about his earlier testimony in relation to his surveillance at the
Camden St. Clair Apartment Complex.
13

Trial Tr. at 115.

Q.

Based on those observations how did that affect your

level of suspicion about the orange truck at that time?

Trial Tr.

at 117.
Clark contends the government presented testimony and evidence
that federal law enforcement received information from "a
confidential source" that a drug transaction was going to occur
%

on March 9, 2015, at unit number 9101 in an apartment complex in
DeKalb County, Georgia.

Based on that information, eight law

enforcement officers set up surveillance at the apartment complex
where they believed a supplier would bring heroin that a male would
later purchase.
Agent Engle testified at trial "approximately 12:00PM, agents
saw an orange truck at the complex, near unit 9101.

The truck

left, but later that day, at around 4:40PM, it returned,

Elie was

driving the truck, and Clark was sitting in the passenger seat.
Elie drove the truck past empty parking spaces in front of 9101
and into the parking deck, whefe he parked, facing the truck
outwards so that it was looking in the direction of unit 9101...
Clark stayed in the car for approximately five minutes before
driving out of the apartment complex.
Clark returned.

About ten minutes later,

Once parked, Clark remained in the driver's seat

and looked around.
Agent Engle was one of the agents conducting surveillance,
at the apartment complex on March 9, 2015.

When asked by the

government "are you familiar with countersurveillance?" Agent
Engle responded that "he was."

The government followed up by

asking, "and what is that?"

14
v

Trial counsel objected arguing "the government had not
provided expert notice under Federal Rule Criminal Procedure 16,
and that testimony based on experience is what expert testimony
is."

Id.
The district court sustained counsel's objection to the

government's question about countersurveillance.

But after

sustaining Clark's objection to the government's request for Agent
Engle to explain countersurveillance, the district court permitted
Agent Engle to testify about what he personally observed and
his conclusions he drew from those observations...
And when asked, "What did you think was happening at the
time?" Agent Engle testified:
Because [Clark] had parked, had passed up
open parking spaces, had parked in line of
sight similar to where we had parked and
hadfand had a view of the apartment, I
believed he was conducting countersurveillance
or acting as a lookout... Id.
Agent Engle was then asked, "How did that affect your level
of suspicion about the orange truck at that time?"

Id.

Agent

Engle explained:
I believe that the orange truck had delivered
money to the apartment and was going to obtain
heroin from the apartment... I believe that
the driver was posing as a lookout because I
saw him looking around the complex... Id.
Here, Agent Engle had no personal knowledge the orange truck
would deliver money to the apartment, nor could he have known
Clark and Elie were going to obtain heroin. See United States v.
Dulcio, 441 F.3d 1269, 1275 (llth Cir. 2006)(concluding it is

15

error to admit opinion testimony of lay witnesses based on
specialized knowledge).

Therefore when Agent Engle was permitted

to testify he believed Clark was conducting countersurveillance or
acting as a look out... and he believed the orange truck had
delivered money to the apartment and was going to obtain heroin
Agent Engle was testifying as a person qualified by "knowledge,
skill, experience, training and education.

This was error.

And

there is a reasonable possibility that this improperly admitted
evidence contributed to the conviction.of conspiracy.
In United States v. Sumlin, 489 F.3d 683, 688 (5th Cir. 2007),
the court allowed Sergeant Kingsley, the arresting officer to
testify as to the circumstances of the stop, arrest and his drug
interdiction efforts.
transporting narcotics,

Kinsley testified he.;suspected Sumlin was
The Fifth Circuit concluded that the

admission of the testimony was erroneous because the evidence was
insufficient to prove that Sumlin had transported narcotics, so
the testimony was "relevant only to the defendant's character and
should not have been admitted.

See id. at 691.

In conducting a

harmless error inquiry, the Fifth Circuit concluded "the district
court's error in admitting Kingsley's testimony affected Sumlin's
substantial rights, and there was a- reasonable possibility that
this improperly admitted evidence contributed to the conviction."
Id. at 691.
Accordingly, Clark has showed that counsel performed deficiently
and that counsel's deficient performance caused prejudice,
issue that Clark's counsel was

The

ineffective for failing to file

a motion in limine with respect to Agent!Engle's testimony regarding
countersurveillance is adequate to deserve encouragement to proceed
16

further.

A certificate of appealability should be GRANTED on this

ground.
Second^ Clark argues that his counsel was ineffective for
failing to request a special jury instructions regarding expert
and lay testimony.

A defendant is entitled to have the court

instruct the jury on a theory of defense when there is a basis in
the evidence and legal support.
The government asserts "Clark's counsel was notlineffective
for failing to request a special jury instruction."

Id.

To support

this contention the government argued that "it is likely that the
court would have denied any request for an expert witness jury
instruction because, with no expert witness at trial, there was
no basis in the record for the instruction.

Thus, counsel's failure

to request the instruction was not ineffective nor did it cause
prejudice to Clark's case."

Id.

Agent Engle testified-based on his observation he "believe
that the orange truck had delivered money to the apartment and was
going to obtain heroin from the apartment."

Trial Tr. at 118.

In United States v. Marshall, 173 F.3d 1312, 1315 (11th Cir.
1999), the Eleventh Circuit found such testimony as "expert testimony."
In this case', the government presented Agent Engle - an expert
testimony - as a lay witness.

If a witness is not testifying as

an expert, testimony in the fortt of an opinion is limited to one
that is: (a) rationally based on the witness'».§ perception; (b)
helpful to clearly understanding the witness's testimony or to
determining a fact in issue; and (c) not based on scientific,
technical, or other specialized knowledge within the scope of
Rule 702.

And when Agent Engle testified
17

Because [Clark]... had parked in line of
sight similar to where we had parked and
had a view of the apartment, I believe
he was conducting countersurveillance or
acting as a lookout....
he was testifying as a person qualified by "knowledge, skill,
experience, training and education, rather then in form of a
opinion. Agent Engle was employed as an investigator of organized
crime for smuggling narcotics in the Atlanta area.

He worked for

Homeland Security assigned to a narcotics unit since 2008.

Prior

to 2008 he worked for the Cobb County Police Department for ten
and a half years assigned to the Marietta Cobb Smyrna Narcotics
Task Force. And he worked six years assigned to the DEA as a DEA
Task Force Officer in Atlanta.

See Trial Tr. at 55-56.

Hence,

seeing as how the jury found Clark not guilty of possessing heroin
with intent to distribute, without Agent Engle's opinion "him
believing Clark was conducting countersurveillance or acting as a
lookout, there is no other evidence to link Clark to the conspiracy.
Had the jury been explained the difference between expert and lay
testimony, there is a reasonable possibility the jury may have
found Clark not guilty of the conspiracy to possess heroin with
the intent to distribute. It was error to admit opinion testimony
of a lay witness based on specialized knowledge,

And counsel's

failure to request the instruction was prejudice.
Based on the aforementioned Clark has demonstrated that
reasonable jurists would find the district court's assessment of
his Sixth Amendment constitutional claims debatable or wrong,
Tennard v. Dretke, 542 U.S. 274, 282, 124 S.Ct. 2562, 159 L.Ed.2d
384 (2004)(quoting Slack v. McDanial, 529 U.S. 473, 484, 120 S.Ct.
1595.1,* 146 L.Ed.2d 542 (2000), or that "the issues presented are
18

'v

/

*

adequate to deserve encouragement to proceed further," Miller-El
v. Cockrell, 537 U.S. 322,. 327, 123 S.Ct. 1029, 154 L.Ed.2d 931
(2003).

This Court should GRANT Clark a COA and remand the case

to the district court for further proceedings.

/
\

19

CONCLUSION

The certificate of appealability should be .granted.

Respectfully submitted,

ftoodrow Andrew Clark, pro se.
Reg. No. 66836-019
Date:
__________

20

